NO.
TS.PDF.

IN THE
SUPREME COURT OF THE UNITED STATES

Joseph A. Harris—PETITIONER
VS.
Michael Pacheco, warden—RESPONDENT
PROOF OF SERVICE
I, Joseph A. Harris do swear or declare that on this date, January 22, 2021 as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served in addition to this Court are as follows:
Jenny L. Craig
Deputy Attorney General
2320 Capitol Avenue
Cheyenne, WY. 82001.

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT.
EXECUTED ON JANUARY 22, 2021

r>r\Ax>_______
^(Signature)

